No. _____________
In The Supreme Court of the United States

Marlow Shelton McDonald, Petitioner

vs.

Jeff Titus, Warden, Rush City Correctional Facility, Respondent.

PROOF OF SERVICE

I, Zachary A. Longsdorf, being first duly sworn, do swear or declare that on this date,
October 1, 2020, as required by Supreme Court Rule 29, I have served the enclosed Motion for
Leave to Proceed in Forma Pauperis and Petition For A Writ of Certiorari on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Susan B. Devos
Assistant Blue Earth County Attorney
PO Box 3129
Mankato, MN 56002
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 1, 2020
s/ Zachary A. Longsdorf
_________________________________
Zachary A. Longsdorf

